        Office Of Inspector General




November 2, 2004

WILLIAM T. JOHNSTONE
SECRETARY, BOARD OF GOVERNORS

SUBJECT: Beach Haven, New Jersey, Post Office
         (Product Number CA-OT-05-002)

In response to a request from Governor S. David Fineman on September 2,
2004, you referred noise and other resident concerns regarding the Beach
Haven, New Jersey, Post Office to the Office of Inspector General for review.

We examined the documentation you provided detailing noise and other
concerns that neighboring residents voiced regarding post office operations. We
discussed those concerns with the Postal Service Law Department and South
Jersey District personnel and learned that Postal Service officials participated in
non-binding mediation with neighboring residents on Thursday, October 7, 2004.
According to Postal Service personnel in attendance, the Postal Service will
continue discussions to resolve concerns and has agreed to meet with the
residents again in February 2005.

We believe this matter is best addressed by first allowing the agreed-upon
mediation to proceed; therefore, we do not plan to perform any further review at
this time.

If you have any questions or need additional information, please contact me at
(703) 248-2300.

s/John M. Seeba

John M. Seeba
Assistant Inspector General
 for Audit

cc:       John E. Potter
          Ruth L. Gottlieb
          Joanna B. Korker




      1735 N Lynn St
      Arlington, VA 22209-2020
      (703) 248-2100
      Fax: (703) 248-2256
